The Honorable Mike Ferguson
United States House of Representatives
Washington, DC 20515

Dear Representative Ferguson:

As you requested, we reviewed the Federal Aviation Administration’s (FAA)
actions to inform Members of Congress and the public about the
Yardley/Robbinsville “Flip-Flop,” which adjusted air traffic flows to Newark
International and LaGuardia International airports.

The Yardley/Robbinsville Flip-Flop was implemented on December 27, 2001, as
part of the National “Choke Points” Initiative to reduce airline delays. Before the
Flip-Flop was implemented, aircraft flying into Newark and LaGuardia airports
passed through narrow sectors where aircraft heading to Newark Airport had to
cross beneath the path of aircraft destined for La Guardia Airport. By swapping
(flip-flopping) the arrival flows for Newark and La Guardia, FAA sought to
reduce airspace complexity and increase the arrival streams into both airports.
The change involves aircraft arrival patterns between 3,000 and 7,000 feet.

As agreed with your office, our objectives focused on the adequacy of answers on
a Preliminary Environmental Review Checklist1 (the checklist), dated August 3,
2001. The checklist was used to help determine the level of environmental study
needed before implementing the Flip-Flop. FAA’s responses on the checklist
indicate that FAA communicated the Flip-Flop and its impact to Members of
Congress, community leaders, and affected citizens; that they were supportive of
the airspace change; that the airspace change would not be controversial; and that
no one objected to the change on environmental grounds.

Our review found that the Flip-Flop was embedded in a much larger initiative to
redesign New York/New Jersey/Philadelphia airspace planned for 2005. While

1
  The Preliminary Environmental Review Checklist is used by environmental specialists to determine the
level of environmental study and documentation appropriate for the proposed air traffic action. It is
intended to help determine the level of controversy an action may cause and whether or not an
environmental assessment or environmental impact statement is warranted.

Control No. 2002-184
                                                                                                             2

FAA was working to inform the Congress and public about the larger effort, the
agency did not provide a clear pattern of detailed information to New Jersey
officials on the Flip-Flop and its impacts. Our review of agency records does not
support agency statements on the checklist that it briefed Members of Congress,
community leaders, and affected citizens specifically about the Flip-Flop. The
Enclosure provides details of our analysis of FAA’s responses.

FAA misjudged the reaction the Flip-Flop would generate with elected officials
and citizens of New Jersey. The reaction to the Flip-Flop illustrates how even
modest airspace changes can impact the public when aircraft noise is shifted from
one location to another. Given FAA’s past experience in the highly controversial
effort to adjust aircraft patterns above New Jersey2 in the late 1980’s, FAA
officials should have recognized the likelihood of controversy regarding the Flip-
Flop and placed increased emphasis on communicating the proposed change to the
citizens and elected officials of New Jersey.

Observations and Conclusions

The Flip-Flop was 1 of the 21 action items in the National Choke Points Initiative3
that FAA pursued to improve the flow of air traffic and reduce delays, which had
reached intolerable levels in the summer of 2000. FAA viewed these 21 action
items as small changes that could be done quickly (within 24 months) to enhance
the flow of air traffic. The following illustrates how the Flip-Flop changed flight
paths to Newark and LaGuardia airports.




                                 Yardley/Robbinsville Flip-Flop
2
  FAA implemented the Expanded East Coast Plan (EECP) in 1987, which adjusted aircraft flight patterns
in New Jersey. Complaints about the plan resulted in a provision in the Aviation Safety and Capacity
Expansion Act of 1990 that required FAA to prepare an Environmental Impact Statement on the EECP.
3
   The National Choke Points Initiative was FAA’s effort to relieve air traffic congestion at
seven geographic areas east of the Mississippi that represent key bottlenecks in the National Airspace
System.
4
    The Choke Point initiatives represent the resolution strategies for the seven top Choke Points in the NAS.


Control No. 2002-184
                                                                                               3

adjusted airspace and procedures for flows from the south into Newark
                       and LaGuardia Airports

      Pre-Flip-Flop                                    Post-Flip-Flop




      LGA                                                EWR
    Yardley
                             EWR
                         Robbinsville                         Yardley

                                                                                 LGA
                                                                            Robbinsville


FAA orders and current environmental rules and regulations4 require FAA to
perform an environmental impact study or environmental assessment before
changes can be made to airports or surrounding airspace. However, a categorical
exclusion from these requirements is authorized for airspace changes (instrument
approach procedures, departure procedures, and en route procedures) conducted at
3,000 feet or more above ground level that do not cause traffic to be routinely
routed over noise sensitive areas or increase the noise footprint of an airport. FAA
stated that the Flip-Flop met these criteria.

In essence, a categorical exclusion means that FAA can move forward with an
airspace change without engaging the public (as opposed to following the process
for an environmental impact statement or environmental assessment). However,
according to FAA Order 1050.1D (Policies and Procedures for Considering
Environmental Impacts), in a scenario where FAA believes an action may be
controversial on environmental grounds, it must inform the public even if a
categorical exclusion is authorized.

Although FAA believed that it was not required to inform the public by law or
agency regulation, FAA decided it would do so on the Choke Points Initiative,
including the Flip-Flop. This was done in concert with a much larger effort to
redesign the New York/New Jersey/Philadelphia airspace planned for completion
in 2005, which is separate from the Choke Points Initiative.

In December 2001, FAA’s Eastern Region issued a Record of Decision regarding
the Flip-Flop, which summarizes the Agency’s basis for implementing the Flip-

4
  FAA Orders 7490 and 1050.1D; the National Environmental Policy Act of 1969, 42 U.S.C. § 4321 et
seq.; 40 C.F.R. § 1500 et seq.


Control No. 2002-184
                                                                                  4

Flop. A checklist completed by an environmental specialist on August 3, 2001,
was used to help prepare the Record of Decision. As you requested, we examined
FAA’s responses to questions on the checklist that address agency efforts to
inform Members of Congress and the public about the anticipated impact of the
airspace change.

We found that FAA embedded its outreach efforts to the Congress and public on
the Flip-Flop with the much larger initiative to redesign New York/New
Jersey/Philadelphia airspace. While FAA was working to inform Congress of the
larger effort, our review of agency records does not support statements on the
checklist that FAA briefed Members of Congress, community leaders, and
affected citizens about the Flip-Flop specifically.

Problems in communicating the Flip-Flop were the result of numerous factors,
which include moving on a fast track and attempting to work the Flip-Flop in
conjunction with the larger effort to redesign the New York/New
Jersey/Philadelphia airspace, which was well underway. FAA did not believe that
the public would oppose the Flip-Flop because a study indicated that, of a total of
17 million people affected by aircraft noise in the area, 207,000 would receive less
noise and over 388,000 would be exposed to increased noise levels. The fact that
over 388,000 people would receive more noise should have been a red flag to
FAA. Furthermore, there is no documentation to indicate how FAA determined
the Flip-Flop would not be controversial. Complete details and conclusions of our
analysis of FAA’s responses to questions on the checklist can be found in the
Enclosure.

FAA Should Avoid Combining Vastly Different Airspace Changes and
Properly Document All Communications Relative to an Airspace Change

Placing the Flip-Flop in the outreach efforts for the larger redesign effort set
expectations that all airspace changes would be worked through a very structured
process, when in fact the Flip-Flop was on a fast track and not subject to the same
process as the larger redesign effort. In addition, FAA must document how it
determines whether or not an airspace change is controversial and do a better job
of documenting its meetings with Congress. To avoid future problems, FAA
should:

    1. Avoid combining airspace redesign efforts that have vastly different
       implementation schedules, levels of review, need for public involvement,
       and anticipated impacts.

    2. Document how it determines whether or not a proposed airspace change is
       controversial.


Control No. 2002-184
                                                                              5


    3. Document and maintain lists of invitees, attendees, and FAA staff
       (including contractors), as well as copies of all presentations given at
       environmental related meetings with the public and congressional
       representatives.


We are providing our recommendations to FAA in a separate letter. If I can be of
further assistance please do not hesitate to contact me at (202) 366-1959 or my
Deputy, Todd J. Zinser, at (202) 366-6767.


Sincerely,



Kenneth M. Mead
Inspector General


Enclosure

cc: Federal Aviation Administrator




                                                                     Enclosure
                                                                     Page 1 of 4


Control No. 2002-184
                                                                                  6


                         Analysis of Questions on FAA’s Checklist

As requested, we examined FAA’s responses to the four questions on the checklist
that addressed agency efforts to inform Members of Congress and the public on
the anticipated environmental impact of the airspace changes. For FAA’s public
outreach, the Flip-Flop was embedded in a much larger New York/New
Jersey/Philadelphia airspace redesign effort, which did not identify the Flip-Flop
as a separate effort. The following provides an analysis of the four questions we
reviewed.

1. Question: “Have persons/officials who might have some need to know about
the Federal action by reason of their location relative to the action or by their
function in the community, been notified, consulted, or otherwise informed of this
action?”

FAA Response: “Yes. Congressional representatives in the affected areas have
been briefed regarding the proposed Flip-Flop and its associated benefits and
impacts.     The proposed Flip-Flop is considered non-controversial on
environmental grounds. The FAA concluded that it is not necessary to perform
further formal community involvement or public meetings/hearings for this
proposed action.”

OIG Analysis: The FAA Office of Government and Industry Affairs is responsible
for scheduling Quarterly National Airspace Redesign Briefings. FAA does not
take attendance at the congressional briefings nor does it maintain a complete file
on the content of the briefings and related comments. While evidence provided by
FAA shows that Members of Congress from New Jersey were invited to briefings
on the New York/New Jersey/Philadelphia airspace redesign effort, the documents
we reviewed do not show a clear pattern of detailed information from FAA to
these New Jersey officials on the Flip-Flop and its potential benefits or impacts.

      • On July 21, 2000, FAA briefed Members of Congress from New York and
        New Jersey on the New York/New Jersey/Philadelphia airspace redesign
        effort and the short-term choke point initiatives. The briefing materials we
        reviewed identify three choke point actions impacting the New Jersey area

                                                                        Enclosure
                                                                        Page 2 of 4



5
    The Record of Decision


Control No. 2002-184
                                                                               7

        (including the Washington Center Sector choke point that would ultimately
        be nicknamed the Flip-Flop).

    • According to FAA officials, a July 13, 2001 briefing to Members of
      Congress (which focused principally on the larger redesign effort) was the
      first time agency officials recall using the nickname Flip-Flop when
      communicating with the New Jersey delegation about the proposed airspace
      change. FAA Headquarters or regional staff could not provide us with a
      copy of the briefing materials.

    • On December 17, 2001, 10 days before the Flip-Flop was implemented,
      FAA provided congressional members with an overview of airspace
      enhancements planned in FAA’s Eastern Region. Briefing materials
      contained information on the Flip-Flop, including current operations and
      proposed changes with respect to controller workload, airline delays, and
      potential noise impacts. FAA stated that there would be no significant
      noise impacts.

2. Question: “Are local citizens and community leaders aware of this action and
are any opposed/supporting it?”

FAA Response: “Yes. Community leaders have been notified and are supportive
of the proposed action. No opposition has been expressed either verbally or in
writing to the FAA.”

OIG Analysis: Available documentation does not show that the community
leaders or the public in New Jersey were aware of the Yardley/Robbinsville Flip-
Flop. It is true that FAA was working to inform community leaders in New Jersey
about the much larger airspace redesign effort. FAA cites various publications
and meetings as evidence of how the agency informed the public about the Flip-
Flop, but we found no specific mention of the Flip-Flop in the documentation
provided.

FAA points out that in January 2001 the agency’s Eastern Region published a
Notice of Intent to prepare an Environmental Impact Statement for the New
York/New Jersey/Philadelphia airspace redesign in the Federal Register, which
was covered in several local newspapers. Also, a newsletter was sent to
2,000 people, and the public meetings were advertised in various local
newspapers. However, there was no mention of the Flip-Flop.

                                                                      Enclosure
                                                                      Page 3 of 4



Control No. 2002-184
                                                                                                      8

Also, FAA points out that it held public meetings (and meetings dedicated
primarily to Federal, state and local agency staff) between January and June 2001
to discuss pending airspace changes. However, the main subject of the meetings
was the New York/New Jersey/Philadelphia airspace changes planned for 2005,
not the Flip–Flop.

FAA does take attendance for all public meetings, and it has a record of comments
officially submitted at or after each of the public meetings.5 However we could
not find evidence that FAA officials presented information on the Flip-Flop, and
agency officials are not certain the subject was discussed. We reviewed
901 comments from the public but found no mention of the Flip-Flop. It is unclear
how much, if anything, the attendees knew of the Flip-Flop.

3. Question: “Has the FAA received one or more comments objecting to the
action on environmental grounds from local citizens or elected officials?”

FAA Response: “No.”

OIG Analysis: We examined the 901 comments from the meetings on the
New York/New Jersey/Philadelphia airspace redesign efforts and the quarterly
congressional briefings. We found no objections on environmental or other
grounds to the Flip-Flop. However, the meetings emphasized the overall airspace
redesign, and there is no indication that the Flip-Flop was mentioned during these
meetings. Therefore, the lack of objections may be based on a lack of
information.

4. Question: “Will implementation of this action be highly controversial on
environmental grounds?”

FAA Response: “No.”

OIG Analysis: FAA badly misjudged how controversial the Flip-Flop would
become. The Flip-Flop also illustrates the unintended consequences a modest
airspace change can have when aircraft noise is shifted from one location to
another.
                                                                 Enclosure
                                                                 Page 4 of 4


5
   According to FAA Eastern Region officials, comments are recorded only if they are provided to a
designated FAA employee at the meeting or later via e-mail or the FAA toll-free telephone number.
Questions asked during the public question-and-answer session are not recorded unless they are submitted
directly to FAA.



Control No. 2002-184
                                                                                             9

FAA based its view that the Flip-Flop would not be controversial on a study by the
MITRE Corporation.6 The MITRE Corporation examined the Flip-Flop with
respect to impacts on airline delays, controller workload, and aircraft noise. This
study, which included a simulation of noise levels anticipated before and after the
Flip-Flop, stated that the Flip-Flop would not have a significant impact.

However, the study shows that over 388,000 people would be subjected to an
increase in noise levels. While the noise levels would be below the accepted noise
threshold of 65 decibels, most of these people had little or no noise before. A
lesson FAA should have learned from the Expanded East Coast Plan is that
subjecting people to even small noise levels, when they previously had none, can
be a major issue to those affected.




6
    “ATC, User and Noise Impacts of Exchanging Southern Arrival Fixes to Newark and LaGuardia
Airports,” dated July 10, 2001. The MITRE Corporation serves as a federally funded research and
development center for FAA.



Control No. 2002-184
